No. 19AIN THE
SUPREME COURT OF THE UNITED STATES
PATRICK EMANUEL SUTHERLAND,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT
Barry J. Pollack
Counsel of Record
Wendy Liu
Jessica A. Ettinger
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBER LLP
2000 K Street, N.W., 4th Floor
Washington, DC 20006
(202) 775-4500
bpollack@robbinsrussell.com
Counsel for Applicant

August 5, 2019

To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court and
Circuit Justice for the Fourth Circuit:
Pursuant to 28 U.S.C. § 2101(d) and Rules 13.5, 22, and 30 of the Rules of this
Court, Applicant Patrick Emanuel Sutherland respectfully requests a 45-day
extension of the time, to and including September 30, 2019, in which to file a petition
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Fourth Circuit. The Fourth Circuit entered judgment in Applicant’s case on
April 19, 2019. A copy of the court’s opinion, reported at 921 F.3d 421 (4th Cir. 2019),
is attached hereto as Exhibit A. The Fourth Circuit denied Applicant’s petition for
rehearing en banc on May 17, 2019. A copy of the court’s order is attached hereto as
Exhibit B. Without an extension, the petition for a writ of certiorari would be due on
August 15, 2019. This application is timely because it has been made at least ten
days before the petition would be due. This Court’s jurisdiction will be invoked under
28 U.S.C. § 1254(1).
This action arises from Applicant’s convictions for submitting false tax returns
(26 U.S.C. § 7206(1)) and obstructing a grand jury proceeding (18 U.S.C. § 1512(c)(2)).
As relevant, businesses owned by Applicant were served with grand jury subpoenas
seeking certain financial records. The businesses complied with those subpoenas.
Applicant, through his then-counsel, subsequently wrote to the U.S. Attorney’s Office
in an attempt to persuade the Office to decline prosecution of Applicant. As part of
that submission, counsel provided the U.S. Attorney’s Office copies of loan
agreements that were not responsive to the corporate subpoenas.

1

At trial, the

government argued that the loan documents sent to the U.S. Attorney’s Office were
fabricated, and the jury found Applicant guilty of obstructing a grand jury proceeding.
In its closing argument, the government argued that none of the funds disbursed to
Applicant’s business was actually loans and that none of the amounts disbursed had
been repaid.

In fact, the evidence at trial demonstrating that many of the

disbursements had contemporaneously been recorded as loans and repayments of a
portion of the disbursements had been made prior to Applicant learning of the
government’s investigation.
Applicant appealed, citing United States v. Aguilar, 515 U.S. 593 (1995), and
Marinello v. United States, 584 U.S. ___, 138 S. Ct. 1101 (2018), in arguing that, as a
matter of law, providing fabricated loan documents to a U.S. Attorney’s Office was
too attenuated from a grand jury proceeding to satisfy the requirement that the
government must demonstrate a nexus between the obstructive act and an official
proceeding. Although the Fourth Circuit acknowledged that the U.S. Attorney’s
Office investigation of Applicant was not an official proceeding, the Fourth Circuit
concluded that the Aguilar nexus requirement was satisfied and affirmed the district
court’s judgment. Op., Exhibit A at 1.
In holding that the Aguilar nexus requirement was satisfied, the Fourth
Circuit held that, because the U.S. Attorney’s Office was “in charge of presenting
evidence to the grand jury,” the false statement to the U.S. Attorney’s Office “had the
foreseeable consequence of reaching and influencing an ongoing court proceeding.”
Id. at 12. The Fourth Circuit reasoned that “there is a strong likelihood that the U.S.

2

Attorney’s Office would serve as a channel or conduit to the grand jury for the false
evidence or testimony presented to it.” Ibid. Critically, in finding the Aguilar nexus
requirement satisfied, the Fourth Circuit did not consider Applicant’s intent or
knowledge relative to whether the U.S. Attorney’s Office would act to convey the false
statements to the grand jury.
The Circuits are divided on how to apply the Aguilar nexus requirement to a
defendant’s statements to a third party that has discretion to influence an official
proceeding.

The First, Fifth, and Seventh Circuits require that the defendant

understand that the third party to whom he made false statements was “integrally
involved” in the grand jury investigation, such that the third party was acting as an
“arm of the grand jury.” See, e.g., United States v. Dwyer, 238 Fed. Appx. 631, 650
(1st Cir. 2007); United States v. Bedoy, 827 F.3d 495, 506 (5th Cir. 2016); United
States v. Macari, 453 F.3d 926, 936–937, 939–940 (7th Cir. 2006); United States v.
Fassnacht, 332 F.3d 440, 449 (7th Cir. 2003). In the Second Circuit, the Aguilar
nexus is satisfied “in situations where the ‘discretionary actions of a third person are
required to obstruct the judicial proceeding’ if it was ‘foreseeable to the defendant
that the third party would act on the communication in such a way as to obstruct the
judicial proceeding,’” and the defendant “intended and believed” that the third party
would act so as to obstruct. United States v. Desposito, 704 F.3d 221, 231–232 (2013)
(quoting United States v. Reich, 479 F.3d 179, 185 (2d Cir. 2007) (Sotomayor, J.)).
Although the Fourth Circuit purported to “join” the Second Circuit in the decision
below, see Op., Exhibit A at 12 (quoting Reich, 479 F.3d at 185), the Fourth Circuit’s

3

rule is different, as noted above, because it does not require a finding of the
defendant’s intent relative to the third party’s discretionary actions.
This action presents a prime opportunity for this Court to resolve the
widespread confusion among the Circuits on how to apply Aguilar’s nexus
requirement when false statements are made not to an official proceeding, but to a
third party.
Applicant further argued that misstating the evidence in closing argument
constituted prosecutorial misconduct.

In the decision below, the Fourth Circuit

applied a standard for evaluating prosecutorial misconduct in closing arguments that
conflicts with not only the Fourth Circuit’s precedent, but also the standard
articulated by the D.C. Circuit. The Fourth Circuit held that even if the closing
argument was improper, it did not affect Applicant’s substantial rights because
closing arguments “are prone to exaggeration,” and the district court instructed the
jury that it should “trust its own recollections of the evidence” and “closing arguments
were not evidence themselves.” Op., Exhibit A at 14.
The holding of the panel of the Fourth Circuit below is wrong. The Fourth
Circuit employs a six-factor test for evaluating whether a prosecutor’s improper
statements prejudice a defendant’s substantial rights. See United States v. Wilson,
135 F.3d 291 (1998). In its decision below, instead of applying Wilson’s six-factor test,
the panel concluded that the jury instruction not to treat argument as evidence cured
any prosecutorial misconduct. Op., Exhibit A at 14.

4

The panel’s holding not only runs counter to Fourth Circuit precedent, it also
runs in sharp conflict with the D.C. Circuit’s jurisprudence. In the D.C. Circuit,
“[s]tandard jury instructions, such as that ‘statements and arguments of counsel are
not evidence,’ and that it is the jury’s ‘memory of the evidence that should control
during deliberations,’ have long been recognized not to be a cure-all for such errors.”
United States v. Davis, 863 F.3d 894, 903 (2017) (emphasis added). This Court’s
review is warranted to clarify the test an appellate court should apply in evaluating
whether a prosecutor’s improper remarks during closing arguments affected a
defendant’s substantial rights.
There is good cause for the requested 45-day extension. Barry J. Pollack is
counsel of record for Applicant. He is lead counsel in a criminal trial, United States
v. Elbaz, No. 18-CR-0157-TDC, in the United States District Court for the District of
Maryland, that started on July 16, 2019, and is still ongoing. Additional time is
necessary and warranted for counsel to confer adequately with Applicant and cocounsel, to analyze the Fourth Circuit’s decisions below, to complete research on the
authorities supporting this Court’s review, and to prepare the petition for certiorari
and appendix.
For the foregoing reasons, the application should be granted and the time for
filing a petition for certiorari in this case should be extended by 45 days, to and
including September 30, 2019.

5

Respectfully submitted,

gel.

By i/nil

Counsel of Record
Wendy Liu
Jessica A. Ettinger
ROBBINS, RUSSELL, ENGLERT,
ORSECK, UNTEREINER &
SAUBERLLP
2000 K Street, N.W., 4th Floor
Washington, DC 20006
(202) 775-4500
bpollack@robbinsrussell.com
Counsel for Applicant

August 5, 2019

6

